".             .p.~.


     Department of Health and Human Services
                       OFFICE OF
        INSPECTOR GENERAL




          REIMBURSEMENT FOR
      OUTPATIENT FACILITY SERVICES

               MANAGEMENT ADVISORY REPORT




                         Richard P. Kusserow
                         INSPECfOR GENERAL
          vc   J rt'




           'QC1              OEl-09-88-01003
                       ............................
            ..............
            .........
                  .........
                    ... "   ......................
                             ...                        ................
                        ...................................
                                     ... ... ..................
                              .............................
                                    ............                    ......
                                                         ,.,.............
                                                  ,... ...........
                                                                 ........
                                                                        ....
                                                                ..........
                                                           ... ...........




                 TABLE                   CONTENTS

PURPOSE

BACKGROUND

METH 0 DO LOGY

FINDING

I)jfferences exist in Medicare payments to OPDs and ASCs.

RECOMMENDATION

APPENDICES

APPENDDC k. Methodology       ................................... A-
APPENDIX B: Agency Cmi1lnents
              RIDMBURSEMENT FOR OUTPATIENT F ACIUIY SERVICES
                                     OEI..Q9-88..01003

 PURPOSE

 This report compares Medicare payments for facility services in ambulatory surgery
 centers        and hospital outpatient departments (OPDs).
           (ASCs)




 BACKGROUND

 Under the Sixth Omnibus Budget Reconciliation Act of 1986 (SOBRA), which was
 effective July 1987, the Hea1th Care Financing Administration (HCFA) began
 reimbursing OPDs the lesser of (1) the hospital's reasonable or customary charges
 for outpatient surgical facility services or (2) a blend of current OPD hospital-
specific costs and ASC prospective payment rate~ for each procedw-e. For the cost
reporting periods beginning October 1987, the blended rate was 75 percent of the
OPD hospital-specific cost and 25 percent of the ASC rate. The blended rate was
changed to a 50-50 percent ratio in October 1988. Effective Janumy 1991 , OPD
reimbursement was changed under the Omnibus Budget Reconciliation Act of 1990
(OBRA 1990) by (1) reducing OPD hospital-specific costs by 5. 8 percent and
(2) using this reduced amount in the new blended rate of 42 percent of the OPD
hospital-specific costs and S8 percent of the ASC rates.
We recently completed an fuspection in which we examined Medicare outpatient
surgery performed in ASCs and OPDs. In Februaxy 1991, we released the medical
outcome analysis in a final report entitled " Outpatient   Surge.ty-Medica1   Necessity
and Quality of Care" (OEI.o9-88-01000).

MmHODOLOGY
We selected three high-volume Medicare procedures--cataract extraction with
intraocular lens (IOL) :implant, lTppe.r gastrointestlnaI
                                                          (GI) endoscopy, and
colonoscopy. We selected a random sample of 1 162 Medicare beneficiaries, half of
whom had their surgeries in ASCs and ha1f in OPDs during the first quarter of
calendar year 1988. The surgeries were performed in the 10 States with the highest
number of Memcare-certified ASCc; in February     1988.

We detennined OPD and ASC paid amounts by reviewing the beneficiary histories
and claims obtained from the Medicare carriers and fiscal intermediaries. For OPDs,
the paid amounts represent the interim payments. These interim payments are
subject to adjustment based on the intermediaIy's audit of the hospital cost report
for the fiscal year in which the selVices were rendered. Our analysis included
surgeons' fees, facility fees , preoperative tests, postoperative office visits, and IOL
charges. In order to gain a national perspective, we made two non-statistical
projections from the data, First, we projected the 10 States
                                                                 ' quarterly costs to
 annua1 costs. Second, since the 
   cost   of sampled procedures represents. 49 percent
 the Medicare procedures performed nationally, we calculated the national costs by
 dividing the sampled costs by 0. 49.This methodology assumes the 10 sampled States
 are representative of the nation as a whole. In appendix A, we have included
 additional information concerning the basis under which we (1) collected and
 analyzed the data and (2) calculated the cost savings.

FINDING

DJFFERENCES EXIST IN MEDICARE PAYMENTS TO OPDs AND ASCs

In 1988, Medicare payments to OPDs exceeded payments to ASCs by 26.3 percent
for upper OI endoscopies,   43. 8 percent for colonoscopies, and 73.6 percent for
cataract surgeries.. In our sample, the weighted OPD facility payments averaged
$276 for uppe,r 01 endoscopies, $331 for coJonoscopies, and $879 for cataract
surgeries. The ASC facility payments averaged $218 for upper Gl endoscopies
$213 for colonosoopies, and $489 for cataract surgeries.

To compare these figures wjth OPD payments under the CUIrent reimbursement
systemt we converted the 1988 OPD data from the 7$.25 percent blended rate to the
estimated 42-58 percent blended rate. We based the average 42-58 percent blended
rate for the sampled procedures OD State averages. Under the 42-58 percent
blended rate, the sampled OPDs still would have been paid more for facility fees
than ASCs for 2 procedures-4. 1 percent more for colonoscopies and 44.
                                                                       9 percent
more for cataract surgeries. On the other hand, OPDs would have been paid
  0 percent less than ASCs for upper Gl endoscopies. The chart on the next page
compares the OPD payments under the two blended rates to ASC
                                                                        paymentS.
                   ::;:::::::::::::
                   ;:;:;:;~:::;:;:
                   :.:.:.:.:,:.:.:.
                   ;:::;:;:::;:::::' :::;;::: --..
                   .:.:.:.:.:.;.:. : ,;.:.:.;.:.;.;.;
                                      ........
                                      ::. ':.
                                     .:.:.:.:.:.:.::                        -----.----------
                                                                               .........
                                                                                .......
                                                                               ::::::::
                                                                   .:.:.:.:.:.:.:.:
                                                                   .:.:,:.:,:.:.:.:
                                                                   :.:.:.:.:.:.:.:.          -.--, :.:.:.:.:.:.:.:.:
                                                                                    ' ,'::::::.                 -.--'...,....
                                                                                                   ':.:.:':. :':.:.:.    --.-.--.--
                                                                                                                      :::::::.
                                                                                                   ;:::::;:;:::::::::.:.:.:.:.:.:.:.
                                                                   ::;:;:::;:::;:;: :.:.:.:.:.:.:.:.           -... ..




          DIFFERENCES EXIST IN OPD AND Ase FACIUTY FEE PAYMENTS
          AVERAGE FACIUTY PAYMENT
$1, DOO


   600


  600

                    :~(~I~t:
  400                                  tf::::
                                                          $276
  200                                                                 $207 $218                                   $221             $213

                   ~~i~ijmi~iji! :~:?f::~:~:
                                                                                                              ::::::::;:::::::: :':':-:':':':':0
               Cataract Surgei)'                          Upper GI Endoscopy                             CoIonoscopy
                                                        TYPE OF SURGERY
             CPO1 PAYMENT                                     OPD2 PAYMENT
             75-25 PERCENT BLEND                        r:o:':
                                                         ;::;:::: 42-58 PERCENT BLEND                    1:::::::::1
                                                                                                                       ASC PAYMENT



 Even under the 42-58 percent OPD blended rate, differences exist in Medicare
 payments to OPDs and ASCs at the State level. For cataract surgeries, OPDs are
 paid more than ASCs in aU sampled States. The differences ranged from $56.62 in
 Arizona to $'442.96 in
                        Maryland
 Although the above chart i1lustrate.$                     ilear   parity in facility fee paynients for upper
 GI endoscopies and colonoscopies
                                  , fiscal intermediaries in sevel'aIStates make
substantia11y different payments based on the setting.
                                                        For co1onoscopies, Florida
OPDs are pajd $90. 59 more than ASCs, while Louisiana ASCs are paid $86.
than OPDs. For upper GI endo3cvpies, Maryland OPD5 arc paid $58.               17 more
                                                                          92 more than
AS~ while Arizona ASCs are pnid $69. 72 more than OPDs.
The OPDs allege that they should receive higher reimbursement than ASCs because
they (1) treat patients with concomitant conditions such as hypertension or diabetes
and (2) maintain standby equipment and staff for
                                                                      discussed jn our   emergencies.   As
report entitled " Outpatient Surgery--Medical Necessity and Quality of Care
found no significant differences between OPDs and ASCs with respect to " we
concomitant conditions, average patient age, ability to resolve intraoperative
complications , or quality of care.

U5ing the 42-58 percent blended :rate, we estimate the difference in Medicare
payments between OPDs and ASCs in our sample was $14.
                                                           43 million per quarter.
This differenCe projects to approximately $57.70 million annuaUy for 1988.
                                                                                                                                     If one
  asswnes our 10-State 5ample is representative of the nation, the difference in
  payments between OPDs and ASCs was approximately $117. 76 million in 1988.

 RECDMMBNJ)ATION

  II-   TIlE HCF    A SHOUlD SEEK LEGISIATION TO ACHIEVE P A1UTY IN
        MC AND OPD PAYMENTS.
 AGENCY COMMENTS

 The HCFA has agreed with our recommendation to seek legislation to acbieve parity
 in ASC and OPD payments. As a result, a HCF A legislative proposal is included in
 the Fiscal Year 1992 Budget. The proposal would establish unifonn payments for
 ASCs and OPDs. The ASCs and OPDs would receive the same payment-
                                                                         the lower
 of either the (1) OPD payment (under the 42-58 percent blended late) or
                                                                         (2) ASC
 rate. The HCFA would implement the new rates for high volume outpatient surgical
 procedures in 1992 and phase in other surgical procedures at a later date.

The HCFA disagreed with the OIG estimated cost savings in the draft report,
because we did not calculate them based on the cunent 42-58 percent blended rate
for OPDs. Wlrile HCFA agrees that OPD payment is significantly higher than ASC
payment for catmact surgery, they believe the opposite is true
GI endoscopies and coIonosc:opies under the current 42.        for upper
                                                             58 percent blended rate.
The complete text of the comments js contained in appendix B.

OFFICE OF lNSPECOOR GENERAL RESPONSE

Based on HCFA' s comments, we have recalculated our cost
                                                              savings based on the
current 42-58   percent blended rate and incorporated the revised cost savings into     the
fincting. According to our data, OPDs still receive more than ASCs for cataract
surgeries and colonoscopies while they recei'(fe less
                                                        for upper 01 endoscopies. The
                        achieved through parity-$107. 61 mil1ion for cataract
following saVings will be
                                                                                 surgeIY,
$5.62 million for upper GI . endoscopies. and $4.53 million for colonoscopies.

While there still may be disagreements about the cost savings between the two
5ettings, we want to emphasize that we do agree with HCFA'
                                                            s legislative proposal to
set parity in both outpatient settings.
                               APPENDIX A

                                   METHODOLOGY
 Facility Fees

 We deteDDined OPD and ASC paid amounts by reviewing the beneficiary payment
 hIstories and claims that we obtained from the Medicare carriers and fiscal
 intermediaries. For OPDs, the paid amounts represent the interim payments. These
 interim payments are subject to adjustment based on the :intennediarts audit of the
 hospital cost report for the fiscal year in which the services were rendered.
 analY2ed all paid amounts including surgeons' fees, facility fees ! preoperative tests,
 postoperative office visits within 90 days after surgery) and IOL charges for cataract
 cases.

 Tn OPD cataract cases, we (a) identified the amount that was paid for the IOL from
 the claim or patient history if it was billed by the hospital and (b) subtracted it from
 the total amount. The remainder was the payment for the facility fee. If we; could
 not isolate the rOL payment1 we contacted the hospital for this :information. Since
 IOu were billed separately -by ASCs during the review period1 there was no need for
 us to deduct them from the facility fee payment for the cataract   surgety cases.

In severa1 cases,
                we excluded records from our analysis because (a) Medicare was
the secondary payor, and thus , the program paid minimal amounts, if any, or (b) the
intermediaries could not locate any claims.


Converting OPD Payments From 75-25        rercent plended ~ates to 42-58 Percent
Blended Rates

The data collected for this inspection represent a 3-mont11 pedod in which OPD
facilities were reimbursed at a blended rate of 75 percent of OPD hospital-specific
costs and 25 percent of the comparable ASC facility fee. Tn order to project
potential cost savings for the options)
                                    we converted the payments from the
75-25 percent blended rates to the 42-58 percent blended rates that were effective
Janumy 1991. We estimated the OPD facility costS by first subtracting (a) the
beneficiary coinsurance and deductibles and (b) 2S percent of the
                                                                     ASC facility fee
paid by the Medicare program (ie., 80 percent of the ASC allowed amount) from
the OPD allowed amount. We divided this futermediate amount by 0. 75, thus
obtainjng the estimated average historical cost that the fiscal intermediary
                                                                             uses to
deteIIDine the blended rate.

Effective January 1 , 1991 ) Section 4151 of the Ommlms Budget Reconciliation Act
(OBRA) of 1990 reduced the OPD reimbursement to a 42-58 percent blended rate.
To calculate the current rate, we (a) reduced the OPD hospitaI.specific
                                                                         ~"t amount
by 5.8 percent, (b) took 42 percent of this reduced amount, and ( c) blended this
amount with 58 percent of the ASC prospective payment rate. Since the IS percent

OPD capital cost adjustment was not effective in 1988, we did not include this

adjustment :in our estimated 42.58 percent blended rates. We based the average

42-58 percent blended rate for the sampled surgeries on State averages. 

comparing the 75-25 percent blended rate to the estimated   4:!r58   percent blended

rate, we calculated the estimated savings between ASC and OPD facility payments.

Cost Estimates and National Projections

Upon reviewing the beneficiary payment histories, we eliminated surgeries that were
:incorrectly coded for ASC8 or OPDs and then substituted additional cases to acl1ieve
the desired sample size. TIms, we adjusted the sample to account for the histories
that contained errors. We used the adjusted sample to develop the cost estimates
for the first quarter of 1988. In addition, we used the estimated 42-58 percent
blended rate for OPD reimbursement for our cost projections.

Since our sample represented one quarter of the year, we multiplied the quatter
projections by four to calculate the annual estimates for the procedures. Also, since
our sample costs represented 49 percent of all surgeries performed nationally, we
divided the annual estimates ,by 0.49 to obtain national projections.

The tables on the following pages present the savings if ASCs and OPDs receive the
same payment for cataract surgeries, upper GI endoscopi~ and colonoscopies.
TABLE 1:     ES'1.":IMATED ANNUAL SAVINGS FOR CATARACT SURGERY
             IF Ases AND OPDs RECEIVED SAME REDIBURSEMENX


                    AVERAGE     ADJUSTED               AWRAGE               ESTIHA':ED
S:t'2\TE:           SAVINCS          51':!;          Q\1AR'l'ERLY               ANNtTAL
                   PER CASE
    UNIVERSE                SAVINGS                SAVINGS
ARIZONA               $56.           1468
          $83, 118.
            5332, 472.

CALU'ORNIA          5296.            5228
      $1, 551, 304.
             205, 217.

FLORIDA             $332.          15470
       $5, 145, 476.
        $20, 581, 906.

ILLiNOIS            $200.           3262
          $653, 345.           $2, 613, 383.

LOUISIANA           $100.           3904
          $394, 108.          $1, 576, 435.

MARn.AND            $442 .          1759
          $779, 156.          $3, 116, 666.

NORTH CAROLINA       $97.           2633
         $257, 136.
          $1, 02S, SSS.

OHIO                $181. 18
       7388
       $1, 338, 557.
         $5, 354, 231.

PENNSYLVANtA        $124. S2
       8034
       $1, 000, 393.
             001, 574.

TEXAS               $149.          13260
       $1, 979, 320.
         $7, 917, 280.


TOTALS;           $1, 982.         62406
      $13, 181, 931.
        $52, 727, 724.


                                                                    ESTIMATED NATIONAL

                                                                    ANNUAL SAVINGS

                                                                    FOR CATARACTS:


                                                                     $107, 607, 601.

TABLE 2:     ESTIMATED ANNUAL SAVINGS FOR UPPER GI ENDOSCOPY€
             IF . ASCs AND O:l?Ds :RECEIVED SAME RBIHBtJRSEKENT

                    AVERAGE    ADJVSTBD               AVERAGB             ESTDm.TEJ)
                    SAVINGS         SITE            QUARTERLY                 ANNUAL
                   PER CASE    UNIVERSE                SAVINGS               SAVINGS
ARIZONA              $69.                              $697.              $2, 788.

CALIFORNIA           $16.           1781           $29, 867.            $119, 469.

FLORIDA              $74.          6949           $513, 195.          $2, 052, 782.

ILLINOIS              $0.                                $0.                   $0.

LOUISIANA            $65.                           $2, 161.              S8, 646.

M2\RYLAND            $58.          1493            S87, 967. S6         $351, 870.

NORTH CAROLINA        $9.                             $150.                  $603.

OHIO                 $21.                           Sl, 30~.              $5, 210.

PENNSYLVANIA         $27.                              129.               $4, 519.

TEXAS               $13. SO        3888            $52, 488.            $209, 952.

TOTALS:            $356.          14173           $688, 960.         $2, 755, 842.

                                                                  ESTIMATED NATXONM.€
                                                                  ANNUAL SAVINGS€
                                                                  FOR U:I?PER GIs:

                                                                     $5, 624, 168.




                                           A-4

~ABLE 3;      ESTIMATED ANNUAL SAVINGS FOR COLONOSCOPY
              IF ASCs AND OPDS RECEIVBD SAME REIMBURSEMENT


                     AVERAGE    ADJUSTED              AVERAGE             ESi'IHA'rBD
                     SAVINGS        SITE           Qt/A1\'rERLY               ANNUAL
                    PER CASE    mnvERS E              SAVINGS                SAVINC-S

ARIZONA                $8.
                            $94.                  $377.
CALJ:FORNIA            $4.          1141
          $4, 769.              $19, 077.
FLORIDA               $90.          4681
        $424, 051.           $1, 696, 207.
ILLINOIS               $0.                              $0.                    $0.
LOUI:SIANA            $66.                             292.               $5, 170.
MARY);.AIW            $76.                            $230.                  $923.
NORTH CAROLI:NA       $89. OS        576          $51.. 292.            $205, 171.
OHIO                 ~SO.          1429           $71, 950.             ~287, 800. 60
PENNSYLVANIA         $33.                            $897.                $3, 589.
TEXAS                  $3.                             $31- 32               $125. 28

1'OTALS:            $442.          7/392        $554, 610.           $2, 218, 443.

                                                                  ESi'Dm.'l'2D NA~IONAL€
                                                                  ANNt1AL SAVINCS€
                                                                  FOR COLONOSOOPIES:

                                                                     $4, 527, 435.
"--..



        APPENDIX B
         AGENCY COMMENTS
                                                                       ~:~~:/: €                     .-:




                                                                                    Health Care€
           DEPARH,1.ENT OF HEALTH &. HUMAN SER~S
                                                                                    Financing Adminism",ion€

                                                    DIG AS 


                                                    DIG-
                                                    Dm-O1€
                                                                                    Memorandum€
           APR 2 9 1991
                                                    ~Ml?€
Date€

From€
           AdministratOr
           Health Care Financing Administration
                                                    OGC/IG

SubjeCt€
           DIG Draft Management Advisory Report ~ "Reimbursement for Outpatient Facility€
           Se1Vices, " OEI- O9..s8-01003€

           The Inspector General€
           Office of the Secretary




                  We have reviewed the subject management acMsory-             which compares
                                                                              report
           Medicare payments for facility services in ambulatory surgery centers (ASCs) and
           hospital outpatient departments (OPDs). This report indicates that M~dicare ParI:
           B payments to OPDs fot' facility services associated with cataract surgery,
           endoscopiest ~nd colonoscapies far exceed payments for the same services when
           they are pro~ded in an ASC. It also states that significant savings could be
           achieved by reducing OPD p~yments for these three services to ASC levels:

                However, data which we have reviewed from the Office of the ACtUary€
            (OACT) for the first quarter of 1990. adjusted for the Omnibus ;Budget
                                1990 COBRA 90) changes and inflated to 1991, indicate that
            Reconctliation Act of
           while- payment to OPDs is significantly higher than payment to ASCs for facility
           services associated with cataract surgery, the opposite is true for endosc:opies and
           colonoscopies. Changing payment for colonoscopies and endoscopies performed in
           OPDs to the ASC rates wouldt therefore, result in a budget cost rather than€
           budget savings.€

                  The report recommends that HCF A seek legislation to achieve parity' in
           ASC and OPD payments' We agree with this recommendatioIt and have' already
           developed a legislative proposal, contained in the Fiscal Year 1992 President
           Budget, to eStablish uniform payment across OPDs and ASCs. We are proposing
           that prospective rates be set at the lower of OPD COStS ot" the- current ASC rate~
           and that the same rate apply whe:ther the service   is provided in an OPD or an
           ASc. These prospective rates would be implemented in 1992 for' high volume
           s~rgicnl procedures, with prospecrj-lre ~tcs phased- in subsequently for other
            ambutatoty surgical procedures.

                    We: do question erG' s savings estimate attached to this recommendation. It€
            does not take into account changes   made to OPD payment by OBRA 90. These€
            changes extended from QBRA 89 the 15 percent cut in hospital outpatient capital
            costs, reduced non-ca.pital outpatient costs by 5. 8 percent, and rednced the blend of
            hospital-specific costs and ASC. prospective       rates to a 42.58 percent radar
        .-                              ~.

Page 2 - The Inspector General€

      We also have me following technical commentS:

      0 On page 1, Background, 1st paragraph: The use of the word "previous
         should be deleted. The blended payment amount is based on a bIend ~f
         a hospital' s present costs and ASC payment rates.

      0 The term fI OrD-specific rate," which is used throughout the report, should
                                                                 '" co~eys a fixed or
        be changed to " hospital-specific cost." The word U rate
        prospective amount' rather than a specific hospital's cost. .

      Thank you far the opportunity to comment on this report. Please      advise us

whether you agree with our position on the report s recomII1endation at your
earliest convenience.
                                             0 LJ:\~
                              GaIl R.            Ph.D.
                                                              'I.




                                                                    : ~ 3€
                                                               ~r
                                                                                  II~

                                                                                TOTAL P. 15
